Audit Report

Bureau of Justice Assistance, State and Local Emergency Preparedness, Grant Number 2002-DD-BX-0059, Awarded to the Maryland Department of Health and Mental Hygiene

Audit Report GR-30-05-001


January 2005
Office of the Inspector General


Executive Summary





In response to the September 11 terrorist attacks, the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP), awarded the Maryland Department of Health and Mental Hygiene (the grantee) $10,573,000 under the State and Local Emergency Preparedness (SLEP) Program through the Bureau of Justice Assistance (BJA).  The funding was provided to:  enhance capacities for detecting and verifying emerging public health events and threats; enhance the intrastate communications capabilities that provide real-time information during emergencies; and develop and maintain a state of readiness to respond to public health threats at the state, local, and infrastructure levels.

We reviewed the grantees accounting records and reports to determine if reimbursements claimed for costs were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.1   The grantee adhered to financial and administrative conditions of the grant with the following exceptions:

The grantee did not submit progress reports to OJP. 

	The grantee did not gain prior approval for the purchase of equipment not identified in the approved budget.

	The grantee did not adequately monitor subrecipients. 

	The grantee changed the project director without providing written notification to the BJA.

	The grantee did not always submit financial status reports to OJP timely. 

	The grantees inventory records did not always identify equipment purchased with federal funds.

We developed six recommendations to improve the grantees compliance with applicable laws, regulations, guidelines, and terms and conditions of the grant.

	
   



Footnote

See appendix I for more information about out objectives, scope and methodology.